                               Report Template Update = 04-30-05_rev.12




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 AVAILABILITY OF QUALITY OF 

 CARE DATA IN THE MEDICARE 

  END STAGE RENAL DISEASE 

         PROGRAM





                    Daniel R. Levinson

                     Inspector General 


                     November 2006

                     OEI-05-05-00300

                                                           Report Template Update = 04-30-05_rev.12




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                                           Report Template Update = 04-30-05_rev.12




Δ   E X E C U T I V E                                    S U M M A R Y                                



                  OBJECTIVE
                  To assess the extent to which data are available to assist Networks in
                  identifying End Stage Renal Disease facilities with quality improvement
                  needs.


                  BACKGROUND
                  Patients with End Stage Renal Disease (ESRD) rely on dialysis
                  treatment to compensate for kidney failure. In 2003, Medicare spent
                  $18.1 billion on covered dialysis services for approximately 311,000
                  dialysis patients.

                  National aggregate data suggest that dialysis care has improved overall.
                  However, questions remain about the quality of care provided at some
                  ESRD facilities. According to the most recently available data (derived
                  from 2002 claims data), about 270 ESRD facilities did not provide
                  adequate dialysis care, as measured by the amount of waste removed
                  from a patient’s blood during dialysis, for 20 percent or more of their
                  patients. Nearly 1,700 ESRD facilities did not meet guidelines for
                  anemia management for 20 percent or more of their patients.

                  To help monitor and improve quality of care, the Centers for Medicare &
                  Medicaid Services (CMS) oversees ESRD facilities through contracts
                  with State survey and certification agencies and ESRD Networks
                  (Networks). State survey and certification agencies survey ESRD
                  facilities to ensure that ESRD facilities comply with current regulations.
                  Networks are statutorily required to identify facilities in need of quality
                  improvement and assist those facilities in developing plans to improve
                  care. Network staff possess clinical expertise related to the care of
                  ESRD patients, enabling them to both assess and assist facilities in the
                  provision of dialysis.

                  In June 2000, both the Office of Inspector General (OIG) and the
                  Government Accountability Office (GAO) issued reports documenting
                  problems with CMS oversight of ESRD facilities and presented their
                  concerns at a hearing before the Senate Special Committee on Aging.
                  OIG found that, while oversight using standardized performance
                  measures encouraged improvements in quality of care, CMS did not use
                  these measures to hold individual facilities accountable. GAO found
                  that the oversight of ESRD facilities was limited. CMS concurred with
                  the findings and recommendations made by these reports. To address
                  some of the concerns raised by these reports, CMS stated that it was

OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                      i
                                                                                            Report Template Update = 04-30-05_rev.12




E X E C U T I V E                           S U       M M A R Y


                   undertaking steps to begin collecting facility-specific data, including the
                   collection of clinical measures through a project called the Core Data
                   Set that would report accurate, meaningful, facility-specific
                   performance measures.

                   Given the previously identified problems with the oversight of quality of
                   care in ESRD facilities and ongoing concerns related to quality of care,
                   we assessed the extent to which data are available to help identify
                   facilities with quality improvement needs, an important element of
                   quality oversight. We limited our scope to data available to Networks
                   because Networks are, legislatively and contractually, the primary
                   entities responsible for oversight of quality improvement.

                   To assess the extent to which data are available to assist Networks in
                   identifying facilities with quality improvement needs, we based our
                   analysis on three sources of information: (1) a review of data sources
                   that measure the quality of care provided by ESRD facilities available to
                   all Networks, (2) a review of documentation regarding how Networks
                   use quality of care data to identify facilities with quality improvement
                   needs, and (3) structured interviews with all Networks and CMS staff
                   responsible for the oversight of quality improvement in ESRD facilities.

                   In our review of data sources that CMS either provided to all Networks
                   or required all Networks to use, we considered factors such as whether a
                   Network could use the source of data to identify quality improvement
                   needs for specific facilities, whether the data source provided
                   comprehensive quality data, and whether the information in the data
                   source was current.


                   FINDINGS
                   While multiple sources of data are available to Networks to assist
                   them in identifying facilities with quality improvement needs, each
                   source has limitations. Based on our analysis, the sources of data
                   available to all Networks, individually and as a system, have limitations
                   in assisting Networks to identify facilities with quality improvement
                   needs. Among other responsibilities, the Social Security Act and the
                   Networks’ current contracts with CMS require Networks to identify
                   facilities in need of quality improvement and to assist those facilities in
                   developing plans to improve care. Yet our review of available data
                   sources reveals that Clinical Performance Measures data and Dialysis
                   Facility Report data lack either the specificity or comprehensiveness
                   necessary for Networks to use them to identify facilities that need

 OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                     ii
                                                                                            Report Template Update = 04-30-05_rev.12




E X E C U T I V E                           S U       M M A R Y


                   assistance. Fistula First provides current and facility-specific data, but
                   only on a single clinical performance measure. Administrative data do
                   not contain clinical performance measures.
                   CMS has taken action towards providing a streamlined source of
                   data that could assist Networks in identifying facilities with quality
                   improvement needs; however, it has not yet been implemented. In
                   2000, CMS stated that it was developing a Core Data Set project that
                   would regularly collect facility-specific data on a comprehensive set of
                   clinical performance measures. If implemented as described, the Core
                   Data Set project could provide one national source of comprehensive
                   facility-specific performance measures. However, CMS has faced
                   technical and resource challenges and the implementation of the Core
                   Data Set project is not complete.


                   RECOMMENDATION
                   This inspection found that while Networks have access to multiple
                   sources of data about quality of care, each has limitations as a tool to
                   assist Networks in identifying facilities with quality improvement
                   needs. Limitations include lack of current, comprehensive, and facility-
                   specific performance data. Under the current system, Networks’
                   abilities to identify facilities in need of quality improvement may be
                   impaired. CMS stated that it planned to provide a streamlined source
                   of performance information through the Core Data Set project that
                   would address these limitations. However, the Core Data Set project
                   has been under development since 2000 and is not yet implemented.
                   The consequences of the limitations in the current quality improvement
                   data sources are twofold. First, Networks’ abilities to ensure that all
                   patients in all facilities receive quality care may be hindered. To fulfill
                   their legislative and contractual responsibility, Networks need current,
                   facility-specific information about facility performance. Second, lack of
                   facility-specific data negatively impacts CMS’s ability to implement a
                   pay-for-performance system for ESRD.
                   We recommend that CMS increase its efforts towards regularly
                   collecting data from all patients and all facilities on all clinical
                   performance measures identified by CMS to address quality of care
                   issues in the ESRD program.




 OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    iii
                                                                                            Report Template Update = 04-30-05_rev.12




E X E C U T I V E                           S U       M M A R Y 




                   AGENCY COMMENTS
                   CMS stated that it has made progress in collecting data to improve the
                   quality of care in the ESRD program; however, opportunities for
                   improvement still exist. CMS outlined the steps it has taken to improve
                   quality of care for the ESRD program, including the development of
                   clinical performance measures, definition of the Core Data Set, and
                   proposed regulations that would require facilities to electronically
                   submit all CPMs on all ESRD patients. CMS also stated that it recently
                   renewed its commitment to developing a new information system called
                   Consolidated Renal Operations in a Web-based Network (CROWN),
                   which would consolidate existing data sources into one system. CMS
                   expects CROWN to be completed in 2008.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We recognize that CMS has taken action towards providing a
                   streamlined source of quality data that could assist Networks in
                   identifying quality improvement needs. However, we found that
                   current sources of data have limitations in assisting Networks in
                   identifying facilities with quality improvement needs. We recommend
                   that CMS continue to work towards providing Networks with facility-
                   specific data on all clinical performance measures.




 OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                     iv
                                                                       Report Template Update = 04-30-05_rev.12




Δ   T A B L E          O F            C O N T E N T S                              




         EXECUTIVE SUMMARY .................................... i




         INTRODUCTION ..........................................                                                         1




         FINDINGS ................................................                                                       9

                    Limitations in current sources of data exist . . . . . . . . . . . . . . . . .                       9


                    CMS has initiated but not implemented streamlined data . . . . . . 13 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


                    Office of Inspector General Response. . . . . . . . . . . . . . . . . . . . . . . 17 




         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 





         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 

                                                                                           Report Template Update = 04-30-05_rev.12




Δ   I N T R O D U C T I O N                                                    




                  OBJECTIVE
                  To assess the extent to which data are available to assist Networks in
                  identifying End Stage Renal Disease facilities with quality improvement
                  needs.


                  BACKGROUND
                  Patients with End Stage Renal Disease (ESRD) rely on dialysis
                  treatment to compensate for kidney failure. In 2003, Medicare covered
                  dialysis services for approximately 311,000 dialysis patients provided by
                  approximately 4,500 Medicare approved ESRD facilities.1 Medicare
                  spent $18.1 billion on ESRD patients in 2003.2
                  National aggregate data suggest that dialysis care has improved
                  overall.3 However, questions remain about the quality of care provided
                  at some individual ESRD facilities. According to the most recently
                  available data (derived from 2002 claims data), about 270 ESRD
                  facilities did not provide adequate dialysis care, as measured by the
                  amount of waste removed from a patient’s blood during dialysis, for
                  20 percent or more of their patients. In addition, nearly 1,700 ESRD
                  facilities did not meet the guidelines for anemia management for
                  20 percent or more of their patients.
                  CMS Oversight of the ESRD Program
                  The Centers for Medicare & Medicaid Services (CMS) divides the
                  responsibility for monitoring and improving the quality of care in the
                  ESRD program between two offices within CMS. The Center for
                  Medicaid and State Operations (CMSO) oversees the survey and
                  certification of Medicare approved ESRD facilities by States. The Office
                  of Clinical Standards and Quality (OCSQ) oversees the ESRD Network
                  (Network) organizations, for which the goals are to develop and
                  implement projects to improve quality of care within the ESRD
                  program.
                  State Survey and Certification
                  CMS contracts with States to survey ESRD facilities to ensure that each
                  facility complies with the ESRD regulations.4 ESRD regulations
                  address patient care, as well as other conditions, such as the condition
                  of the environment, water, and equipment. According to CMS staff,
                  approximately one-third of ESRD facilities should be surveyed each
                  year.


OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                     1
                                                                                             Report Template Update = 04-30-05_rev.12




I N T R O D        U C T               I O N


                    Networks
                    CMS currently contracts with 18 regional Networks to oversee the
                    quality of care in ESRD facilities. Established under section
                    1881(c)(1)(A) of the Social Security Act, Networks are charged with
                    improving the quality of ESRD facilities. Unlike State survey agencies
                    that are responsible for regulatory enforcement, Network staff possess
                    clinical expertise related to the care of ESRD patients, enabling them to
                    both assess and assist facilities in the provision of dialysis. Network
                    funding is approximately $25 million for 2006.

                    Pursuant to the Social Security Act, Network responsibilities include,
                    but are not limited to:
                    o	 Developing criteria and standards relating to the quality and
                         appropriateness of patient care,
                    o	 Identifying facilities and providers that are not cooperating toward
                         meeting Network goals,
                    o	 Conducting onsite reviews of facilities and providers if necessary,
                         and,
                    o	 Collecting national ESRD data.5

                    CMS further delineates Network responsibilities through the 2003-2006
                    Network Statement of Work (SOW). Among other tasks, Networks are
                    required under their contract to
                                     [assist] ESRD providers and facilities (either individually
                                     or in groups) in developing and implementing facility-
                                     specific quality improvement actions to improve their
                                     patient care processes and outcomes, upon request and/or
                                     upon identifying poor performance or a specific need.6
                    Concerns Regarding the Oversight of ESRD Facilities
                    The Office of Inspector General (OIG) and the Government
                    Accountability Office (GAO) have previously found problems with CMS
                    oversight of ESRD facilities. In June 2000, OIG and GAO issued
                    reports7 documenting problems with CMS oversight of ESRD facilities
                    and presented their concerns at a hearing before the Senate Special
                    Committee on Aging.

                    OIG found that while CMS oversight using standardized performance
                    measures encouraged improvements in quality of care, CMS did not use
                    these measures to hold individual facilities accountable. OIG also found
                    that Medicare certification surveys played a limited role in ensuring
                    that ESRD facilities met minimum standards.

 OEI-05-05-00300    AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                     2
                                                                                             Report Template Update = 04-30-05_rev.12




I N T R O D        U C T               I O N


                    GAO found that the oversight of ESRD facilities needed improvement.
                    In particular, GAO found that CMS surveyed a limited number of
                    facilities and that many facilities went years between surveys. In
                    addition, GAO found that data used by CMS to target surveys were
                    neither timely, nor necessarily reliable.

                    CMS concurred with the findings and recommendations made in both of
                    these reports. To address some of the concerns raised by these reports,
                    CMS stated that it was undertaking steps to begin collecting facility-
                    specific data, including the collection of clinical measures through a
                    Core Data Set project that would report accurate, meaningful facility-
                    specific performance measures. CMS also stated that it intended to
                    collect these data on all ESRD patients regularly.

                    In response to a request from the Senate Finance Committee, in 2003
                    GAO conducted a follow-up study examining CMS oversight of ESRD
                    facilities. GAO reported that problems with quality of care were
                    prevalent at dialysis facilities, putting patients’ health at risk. GAO
                    found that limitations in the ESRD survey process inadequately
                    addressed or failed to detect quality problems. In response to this
                    report, CMS stated that, among other improvements, it planned to
                    provide “. . . one patient-centered data set that can be used for program
                    oversight.”8
                    ESRD Quality Initiative
                    In 2004, as part of a larger departmental Quality Initiative intended to
                    ensure quality health care for consumers, CMS developed an ESRD
                    Quality Initiative with the objective of stimulating and supporting
                    significant improvements in the quality of dialysis care.9 Among other
                    activities, this initiative “aims to refine and standardize dialysis care
                    measures, ESRD data definitions, and data transmission to support the
                    need of Medicare’s ESRD program.”10 CMS is also currently
                    experimenting with ways to link quality to payment. As part of the
                    ESRD Quality Initiative, CMS is developing a demonstration project for
                    bundled payment that has a pay-for-performance element. This
                    demonstration project is supported by the Medicare Payment Advisory
                    Commission,11 and is indicative of an overall effort by the Department
                    of Health and Human Services (Department) to link performance and
                    quality of care to reimbursement.12
                    Use of Data in Oversight of the ESRD Program
                    Several organizations have suggested that access to quality of care data
                    is necessary to provide adequate oversight of the program. The

 OEI-05-05-00300    AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                     3
                                                                                             Report Template Update = 04-30-05_rev.12




I N T R O D        U C T               I O N


                    Institute of Medicine and the Medicare Payment Advisory Commission
                    have recognized the necessity of data to provide meaningful oversight.13
                    These organizations recommended that providers be required to report
                    performance measures to stimulate improvements in quality of care.
                    Further, the Balanced Budget Act of 1997 required CMS to measure
                    and report data about quality of care by the year 2000.14 In response,
                    CMS began to develop the ESRD Clinical Performance Measures (CPM)
                    and the Dialysis Facility Compare Web site, which publishes data from
                    the Dialysis Facility Report (DFR) (described below).

                    Currently, Networks have access to several data sources containing
                    information about the ESRD program.
                    ESRD Clinical Performance Measures Project
                    The ESRD CPM project is a national effort led by CMS and the
                    Networks to collect and report clinical performance data. Currently,
                    13 clinical performance measures based on National Kidney Foundation
                    clinical practice guidelines are reported as part of the CPM project. The
                    National Kidney Foundation guidelines are commonly accepted
                    standards on the quality of dialysis care. As such, CMS uses these
                    measures as the key indicators of the quality of dialysis care. Each of
                    the clinical performance measures addresses one of the following
                    categories: adequacy of dialysis, anemia management, or vascular
                    access.

                    Performance data on each of these clinical performance measures is
                    collected and reported in aggregate each year. The data are derived
                    from a medical record review of a national random sample of ESRD
                    patients, stratified by Network.
                    Dialysis Facility Report
                    Issued by CMS, the DFR is a report containing facility-specific
                    information on dialysis services. In 1998, CMS hired a contractor to
                    produce a report for each Medicare-certified ESRD facility. The report
                    contains summary data on each facility’s dialysis patients for specific
                    measures related to quality of care. The DFR data are derived from
                    existing administrative and Medicare claims data. The DFR lists the
                    State, Network, and national average for each performance measure for
                    comparison. The DFR includes information on demographics, patient
                    characteristics, adequacy of dialysis, anemia management, transplant
                    rates, hospitalization rates, and mortality rates.15 The DFRs are issued
                    annually.



 OEI-05-05-00300    AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                     4
                                                                                             Report Template Update = 04-30-05_rev.12



I N T R O D        U C T               I O N



                    National Fistula First Initiative
                    The National Fistula First Initiative (Fistula First) is a quality
                    improvement project conducted by all Networks to promote the use of
                    arteriovenous (AV) fistulas16 in all suitable dialysis patients. CMS,
                    Networks, and other provider partners began to develop this project in
                    July 2003.

                    As part of Fistula First, facilities collect data elements related to
                    vascular access and submit this information to the Networks monthly.
                    The Fistula First data collection tool provided by CMS requests patient
                    information about the type of access in use on the last day of the month.
                    This information is aggregated into a monthly national report for
                    comparison to regional and national averages.
                    Administrative Data
                    Networks also have access to administrative data. Networks report
                    administrative information to CMS on an ongoing basis that includes
                    patient demographics, enrollment, deaths, complaints, and grievances.
                    Additional Process for Requesting Data
                    Finally, CMS reports that they have developed a process through which
                    Networks may request permission to collect additional data. According
                    to the SOW, Networks are required to have any data collection effort
                    that is not specifically required by the SOW approved by CMS.


                    SCOPE AND METHODOLOGY
                    Scope
                    Given the previously identified problems with the oversight of quality of
                    care in ESRD facilities and ongoing concerns related to quality of care,
                    we assessed the extent to which data are available to help identify
                    facilities with quality improvement needs, an important element of
                    quality of care oversight. We limited our scope to data available to
                    Networks because Networks are, legislatively and contractually, the
                    primary entities responsible for oversight of quality improvement.
                    Methodology
                    To assess the extent to which data are available to help identify
                    facilities with quality improvement needs, we based our analysis on
                    three sources of information: (1) a review of data sources that measure
                    the quality of care provided by ESRD facilities available to all
                    Networks, (2) a review of documentation regarding how Networks use
                    quality of care data to identify facilities with quality improvement


 OEI-05-05-00300    AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                     5
                                                                                             Report Template Update = 04-30-05_rev.12




I N T R O D        U C T               I O N


                    needs, and (3) structured interviews with all Networks and CMS staff
                    responsible for the oversight of quality improvement in ESRD facilities.
                    Data Source Review
                    To assess the extent to which data are available to help identify
                    facilities with quality improvement needs, we reviewed sources of data
                    that CMS either provided to all Networks or required all Networks to
                    use. In reviewing these sources, we considered factors such as whether
                    a Network could use the source of data to identify quality improvement
                    needs for specific facilities, whether the data source provided
                    comprehensive quality data, and whether the information in the data
                    source was current.

                    During our preliminary analysis, we identified the following four data
                    sources that were available to all Networks:
                    o 2004 ESRD Clinical Performance Measures Project,

                    o 2004 Dialysis Facility Report,

                    o Fistula First, and

                    o Administrative data.

                    To assess whether these four data sources assist Networks in
                    identifying facilities with quality improvement needs, we reviewed the
                    scope and methodology for reports or projects associated with each data
                    source. We reviewed the type, age, and method of information collected.
                    We also reviewed reports from these data sources (e.g., the 2004 CPM
                    Annual Report and the 2004 DFR) to understand how CMS and
                    Networks may be using these data sources to measure and identify
                    quality of care needs in ESRD facilities.
                    Documentation Review
                    In addition to our review of the data sources available to Networks, we
                    reviewed documentation provided by Networks and CMS to understand
                    how potential problems with quality of care in ESRD facilities are
                    identified. We also reviewed documents that provided information on
                    the oversight of the ESRD program including relevant sections of the
                    Social Security Act, current CMS regulations, and proposed CMS
                    regulations for the ESRD program, which govern the survey and
                    certification of the ESRD program.




 OEI-05-05-00300    AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                     6
                                                                                             Report Template Update = 04-30-05_rev.12




I N T R O D        U C T               I O N


                    From the Networks, we reviewed:
                    o	 Any analysis that Networks had completed using quality of care
                         data to identify possible dialysis facilities in need of review or
                         training,
                    o	 Documentation about the effectiveness of quality of care data,

                    o	 Documentation regarding Network requests to collect data, and

                    o	 Correspondence about any barriers to use of quality of care data.

                    From CMS, we reviewed:

                    o	 Current SOWs for Networks and CMS’s data contractors,

                    o	 Evaluation criteria for the Networks,

                    o	 Correspondence between CMS and the Networks about the
                         collection and use of data,
                    o	 Documentation regarding Network requests to collect data, and

                    o	 All of the Networks’ quarterly reports for the first three quarters of
                         calendar year 2005.
                    Structured Interviews
                    We conducted structured interviews with all Network and CMS staff
                    responsible for the oversight of the quality of care provided in ESRD
                    facilities to obtain information about how the various data sources are
                    used to identify potential quality of care problems.

                    We conducted structured interviews with executive-level
                    representatives and/or their staff responsible for quality improvement
                    and data-related activities from all 18 Networks. Our interviews were
                    conducted between October 13 and November 10, 2005. We conducted
                    one interview with all relevant parties at each Network. Because
                    1 agency administers the contracts for 2 Networks, this resulted in
                    17 interviews.

                    During our structured interviews, we asked Networks how useful each
                    of the data sources are in identifying needed improvements in quality of
                    care in ESRD facilities. We also asked if Networks faced any barriers to
                    using the data sources and inquired about the impact of those barriers.
                    To ensure that we identified all sources of quality of care data, we
                    inquired about any additional sources that Networks use to assist with
                    their quality improvement activities.



 OEI-05-05-00300    AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                     7
                                                                                             Report Template Update = 04-30-05_rev.12




I N T R O D        U C T               I O N


                    We also conducted structured interviews with CMS central office staff in
                    November 2005. We spoke with staff responsible for the oversight of the
                    ESRD program in OCSQ and CMSO to learn what quality of care data
                    CMS provides to Networks, and to identify requirements regarding the
                    use of quality of care data by Networks. We also asked for details on
                    the sources of quality of care data CMS provides to all Networks and
                    CMS’s future data collection plans for the ESRD program.

                    We created a coding system to analyze our structured interviews. After
                    creating the coding system, we analyzed the responses using both SAS®
                    and Access®. In developing our findings, we used this analysis of
                    interview data to supplement our review of the data sources and
                    documentation.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-05-05-00300    AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                     8
                                                                                               Report Template Update = 04-30-05_rev.12




Δ       F I N D I N G S 


While multiple sources of data are available to               Among other responsibilities, the
Networks to assist them in identifying facilities             Social Security Act and the
 with quality improvement needs, each source                  Networks’ current contract with
                                has limitations               CMS require Networks to identify
                                                              facilities in need of quality
                      improvement and to assist those facilities in developing plans to
                      improve care. To identify these facilities, Networks need clinical
                      performance data on each facility that would allow facilities to be
                      assessed in a timely fashion. While Networks have access to a number
                      of data sources related to the ESRD program, each of these sources has
                      limitations as a tool to assist Networks in identifying facilities with
                      quality improvement needs. Limitations of existing sources of data
                      include lack of facility-specific data, lack of comprehensive clinical
                      performance measures, and questionable timeliness. The multiple
                      sources of data together compose a system of data about quality of care
                      available to Networks. However, this system is fragmented,
                      duplicative, and lacks comprehensive clinical performance measures.
                      Clinical Performance Measures data do not enable Networks to identify
                      facilities with quality improvement needs
                      Our review of the CPM methodology revealed that the CPM project does
                      not provide facility-specific clinical performance data. Rather, the CPM
                      project collects aggregate performance data. The only way CPM data
                      can be used to identify facilities with quality improvement needs is if
                      facilities first identify their own performance problems by comparing
                      their performance to the CPM data, and then self-report these problems
                      to the Network.
                      In addition to our review, Networks also report that CPM data cannot
                      be used to identify facilities with quality improvement needs.
                      Representatives from all 18 Networks reported that they cannot use
                      CPM data to target individual facilities in need of quality improvement.
                      As one Network representative noted, if 90 percent of facilities meet
                      Network goals on a clinical performance measure and 10 percent do not,
                      the Network has no way to use the CPM data to identify the 10 percent
                      of facilities who need assistance. Other Network representatives
                      observed that each facility may only have a few patients in the CPM
                      sample, which is not enough for the data to be statistically valid at the
                      facility level, so no conclusions can be drawn about a specific facility’s
                      performance.




    OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                     9
                                                                                           Report Template Update = 04-30-05_rev.12



F   I N D I N G         S             




                  Staff at eight Networks reported that the lack of facility-specific
                  performance information in the CPM data only allows for the
                  identification of broad educational efforts. When these Networks have
                  discovered a problem with a particular CPM, they have responded by
                  educating the entire Network of facilities. While broad educational
                  efforts may be beneficial, these efforts may also use resources that could
                  have been more efficiently targeted at specific facilities with quality of
                  care problems.
                  Dialysis Facility Report data provides data on only 3 of the 13 clinical
                  performance measures. In addition, most Networks report timeliness of the
                  data is a limitation
                  The DFR does contain some facility-specific data that may assist
                  Networks in identifying facilities with quality improvement needs. The
                  annual DFR contains facility-specific information about dialysis care,
                  primarily derived from Medicare claims data. However, only 3 of the
                  13 CPMs identified by CMS are covered by the DFR.17 Networks are
                  not required to use DFR data under their SOW, as they are with other
                  sources. The DFR is primarily intended to be used by State surveyors
                  to target ESRD facilities that will be visited for recertification each
                  year.

                  The three CPMs reported in the 2004 DFR are derived from claims data
                  that was between 8 and 20 months old at the time the Networks
                  received it. For each of these three CPMs, the DFR reports one data
                  point (an average or mode) derived from data from the previous
                  calendar year.

                  Despite finding some aspects of the DFR useful, representatives from
                  14 of 18 Networks report that the age of the data is a limitation. Staff
                  at one Network provided an example of how they tried to use the DFR
                  data to identify and address quality improvement needs and had limited
                  success. This Network developed a project to identify and assist
                  facilities that did not meet the guideline for a particular DFR measure.
                  The DFR data showed that 30 facilities in their Network were not
                  performing adequately. However, when the Network began to assist
                  these facilities, it discovered that nearly half of the facilities were, at
                  that time of the intervention, meeting the identified goal. Further, the
                  Network had no information on whether any facilities outside of the
                  30 that were originally identified had developed a problem since the
                  time period reflected by the data.



OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    10
                                                                                               Report Template Update = 04-30-05_rev.12




F   I N D I N G 
S


                      While some Networks attempted to use the DFR data to identify
                      facilities with quality improvement needs, others reported that they
                      only used it after a concern is identified through other means, citing
                      timeliness as the reason. Nearly half of the Networks volunteered that
                      they only review DFR data when addressing a previously identified
                      concern about a facility, or only use it in conjunction with other
                      information sources. All but one of these Networks indicated their
                      limited usage is due to the age of the data.

                      Six Networks also expressed concern about the accuracy of the DFR
                      data. We did not review the accuracy of the data. We did ask the
                      contractor who prepares the report about validation procedures for the
                      DFR data. They reported that the data are not routinely validated, but
                      facilities are allowed the opportunity to make corrections to their self-
                      reported data prior to the reports being issued. A 2003 study compared
                      DFR data to CPM data, a portion of which was validated against
                      medical records.18 This study found that there was general agreement
                      between clinical variables submitted on claims (used in the DFR) and in
                      the CPM project.
                      Fistula First data address only one clinical performance measure
                      Our review of the Fistula First data collection tool revealed that Fistula
                      First provides both facility-specific and current data related to the use
                      of AV fistulas for hemodialysis access. Networks are evaluated on the
                      performance of all facilities in their Network on vascular access
                      measures. Our documentation review also identified examples of how
                      Networks have successfully used this facility-specific information for
                      quality of care oversight. Specifically, one Network uses the data to
                      target facilities for site visits. In addition, several Networks use it to
                      develop facility-specific quality improvement plans for vascular access.

                      However, the Fistula First data provide information on only 1 CPM,
                      related to vascular access, out of the 13 CPMs identified by CMS. These
                      data do not provide information on other CPMs, such as those related to
                      adequacy of dialysis or anemia management.
                      Administrative data do not contain clinical performance measures
                      Administrative data provide information on patient demographics,
                      enrollment, and deaths. Administrative data also provide information
                      on complaints or grievances, which can be used to identify instances of
                      poor performance, although not systematically. Further, administrative
                      data do not contain CPMs. For these reasons, Networks cannot rely
                      upon these data to identify facilities with quality improvement needs.

    OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    11
                                                                                               Report Template Update = 04-30-05_rev.12




F   I N D I N G 
S


                      CMS reports an additional process for collecting facility-specific data;
                      however, this process is not designed to identify facilities with quality
                      improvement needs
                      CMS reported that they have developed a formal process through which
                      Networks may request permission to collect additional data from
                      facilities within their own Network. According to the SOW, Networks
                      are required to have any data collection effort that is not specifically
                      required by the contract approved by CMS. CMS established a data
                      review committee to review such requests.

                      However, this process is not intended to assist Networks in identifying
                      facilities with quality improvement needs. According to CMS staff,
                      CMS expects that a quality improvement need be identified before the
                      data can be collected. Therefore, this process does not seem to be a
                      viable option for Networks to use to identify facilities with quality
                      improvement needs.

                      Further, the process of Networks requesting additional facility-specific
                      data is not routinely invoked. While the process of requesting data is
                      available to all Networks, it requires a proactive effort to request it.
                      Taken together, the sources of available data compose a system with
                      limitations for identifying facilities with quality improvement needs
                      All sources of data about quality of care together compose a system of
                      data available to Networks. However, this system is fragmented,
                      duplicative, and lacks comprehensive performance measures.

                      The current system of data about quality of care is fragmented. We
                      have identified at least five different sources of data about quality of
                      care in this report. For Networks to try to use existing data
                      systematically to identify facilities with quality improvement needs,
                      they would need to extract different data elements from each of the five
                      sources and assemble those data elements together to profile each
                      facility in their Network. On average, each Network has approximately
                      250 dialysis facilities.

                      The current system of data also contains some information that is
                      duplicative and inconsistently reported. For example, data about
                      anemia management, a key measure of dialysis care, is currently being
                      collected as part of two different projects: the CPM project and the
                      DFR. Each project collects the data in different ways from potentially
                      different populations covering different periods of time. The CPM
                      project anemia management data are obtained from the medical records
                      of sampled patients. The DFR data come from data reported on

    OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    12
                                                                                                Report Template Update = 04-30-05_rev.12




 F   I N D I N G         S


                       Medicare claims. In addition, other duplicative data are reported using
                       different measures. The 2004 DFR reported vascular access
                       information, but not the same vascular access information reported in
                       the CPM or Fistula First projects.

                       Finally, the current system lacks comprehensive clinical performance
                       measures on each facility. Even when viewed together as a system of
                       data, currently available sources provide facility-specific information
                       about only 4 of the 13 CPMs.



      CMS has taken action towards providing a               In 2000, CMS stated they were
  streamlined source of quality data that could              developing a Core Data Set project
                                                             that would collect facility-specific
    assist Networks in identifying facilities with
                                                             data on a comprehensive set of
quality improvement needs; however, it has not
                                                             clinical performance measures
                         yet been implemented                regularly. If implemented as
                                                             described, the Core Data Set
                       project could capture data currently collected from multiple sources in
                       one national source of comprehensive facility-specific performance
                       measures. However, CMS staff reported that technical and resource
                       challenges have delayed implementation of the Core Data Set project,
                       which is not complete.
                       CMS initiated a Core Data Set project that could assist Networks in
                       identifying facilities with quality improvement needs
                       In response to the June 2000 OIG and GAO reports indicating flaws
                       with the oversight of the ESRD program, CMS stated that it was
                       developing the Core Data Set project. According to CMS’s comments
                       published in each of these reports, the Core Data Set project would
                       strive to “determine and report accurate, meaningful facility-specific
                       performance measures [to] allow comparisons across dialysis centers
                       and will ultimately increase facility accountability and patient choice.”19
                       CMS also stated that they intended to collect these data on all ESRD
                       patients regularly. Further, the Core Data Set SOW issued by CMS
                       specified:
                                        that the Core Data Set will include data elements
                                        currently needed by the ESRD Networks under their
                                        contract with CMS to conduct quality improvement
                                        oversight activities and those data elements currently
                                        needed (or collected) by CMS to conduct ESRD program
                                        oversight activities.20


     OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    13
                                                                                               Report Template Update = 04-30-05_rev.12




F   I N D I N G 
S


                      The Core Data Set project would include elements currently collected as
                      part of other projects, such as the CPM, DFR, and Fistula First, as well
                      as other measures.21 Rather than collect all of these data elements
                      through separate projects, the Core Data Set project would consolidate
                      and standardize these data into one project.
                      While CMS has made progress, over the past 6 years the Core Data Set
                      project has not been implemented
                      CMS officials report that they have made progress towards
                      implementing the Core Data Set project by identifying the data
                      elements to be collected. In January 2000, CMS initiated a public
                      process to identify the data elements of the Core Data Set. CMS
                      finalized the list of desired data elements in 2005.

                      CMS has also started establishing systems to collect the Core Data Set.
                      According to CMS staff, the next phase of implementation of the project
                      is electronic data collection. CMS is currently developing two different
                      methods of electronic data collection. First, CMS is testing electronic
                      downloads of quality improvement information with the Large Dialysis
                      Organizations (LDO).22 Second, CMS is developing and distributing a
                      software product that would enable electronic data collection for non-
                      LDO facilities.

                      CMS has continued to promote electronic data collection of quality
                      improvement information by suggesting that it become mandatory. In
                      the proposed regulations for ESRD facilities, CMS would require
                      facilities to submit CPM data and future clinical performance standards
                      electronically.23 The proposed regulations do not define how often these
                      data would be collected; the regulations state that this information
                      would be required to be submitted at intervals specified by the
                      Secretary of the Department of Health and Human Services.

                      In the meantime, CMS staff indicated that they have made recent
                      progress by collecting facility-specific lab data. CMS staff report that
                      Networks have access to at least 3 months of lab data from the
                      preceding year from 70 percent of facilities, and that Networks are
                      allowed to collect these same data from the remaining 30 percent of
                      facilities.

                      Despite progress, CMS staff responsible for the quality oversight of the
                      ESRD program report that the Core Data Set project has not been
                      implemented due to technical and resource challenges. Most of the
                      technical challenges CMS staff report are associated with electronic


    OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    14
                                                                                           Report Template Update = 04-30-05_rev.12




F   I N D I N G           S

                  data collection and include: developing file specifications, standardizing
                  definitions of data elements, and validation of Core Data Set elements.

                  In a 2004 SOW for an electronic information system, CMS stated that
                  “. . . there is an immediate need to develop a standard quality
                  improvement data collection instrument and file format with standard
                  definitions of the data elements to support quality improvement
                  activities defined in the Network SOW.”24 However, CMS
                  representatives reported during our interview that they do not have
                  dedicated funding to implement the Core Data Set project. As such,
                  CMS staff indicated that they are focusing on incremental changes to
                  existing data systems in ways that would support the Core Data Set
                  project.




OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    15
                                                                                                Report Template Update = 04-30-05_rev.12




Δ   R E C O M M E N D A T I O N                                                       


                       This study found that while Networks have access to multiple sources of
                       data about quality of care, each has limitations as a tool to assist
                       Networks in identifying facilities with quality improvement needs.
                       Limitations include lack of facility-specific, comprehensive, and current
                       clinical performance measures. Taken together, these sources compose
                       a limited system of data about the quality of the ESRD program.

                       Under the current system, Networks’ abilities to ensure that all
                       patients in all facilities receive quality care may be impaired. While
                       facilities may take the initiative to compare their own performance to
                       national targets and self-report deficiencies, this is not required. To
                       fulfill their legislatively mandated and contractual oversight
                       responsibilities, Networks need facility-specific, comprehensive, and
                       current clinical performance measures.

                       In addition to implications for quality of care, limitations of the current
                       system of data about the ESRD program may have implications for the
                       movement in health care towards linking payment to quality. The
                       Medicare Payment Advisory Commission has expressed an interest in a
                       pay-for-performance system for ESRD facilities using quality
                       improvement information. Also, the Department is currently
                       developing a demonstration project that will include a pay-for­
                       performance element. While CMS has not yet defined how they will
                       implement a pay-for-performance system, it is reasonable to assume
                       that such a system would require facility-specific, current information
                       on a number of performance measures.

                       Finally, the type of available data about the ESRD program are not only
                       important for Networks but for other users as well, such as State
                       surveyors, CMS staff who administer the ESRD payment, CMS staff
                       who establish regulations, lawmakers, and the public.

                       We recognize that CMS initiated a plan to provide a streamlined source
                       of performance data through the Core Data Set project that could
                       address the limitations of the current system. The Core Data Set
                       project could provide facility-specific data on all of the clinical
                       performance measures on all patients regularly to facilitate
                       comparisons among facilities to increase facility accountability and
                       patient choice. CMS has stated that it faces technical and resource
                       challenges to collecting data for the Core Data Set. However, the Core
                       Data Set project has been under development since 2000 and has not
                       yet been implemented.



     OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    16
                                                                                              Report Template Update = 04-30-05_rev.12




R   E C O         M M E N D A T                             I O N


                     We recommend that CMS increase its efforts towards regularly collecting
                     data from all patients and all facilities on all clinical performance measures
                     identified by CMS to address quality of care in the ESRD program.
                     CMS could accomplish this through completing implementation of the
                     Core Data Set project, or by some other means. This supports our
                     earlier recommendation to CMS regarding development of facility-
                     specific quality improvement information. In our 2000 report entitled
                     “External Quality Review of Dialysis Facilities: A Call for Greater
                     Accountability” (OEI 01-99-00050), we recommended that CMS use
                     facility-specific performance measures to encourage facilities to improve
                     quality of care and to help ensure that facilities meet minimum
                     standards.25 CMS concurred with this recommendation, stating that
                     the Core Data Set project under development would accomplish this
                     goal.


                     AGENCY COMMENTS
                     CMS stated that it has made progress in collecting data to improve the
                     quality of care in the ESRD program; however, opportunities for
                     improvement still exist. The complete text of CMS’s comments can be
                     found in the appendix.

                     CMS outlined a number of steps it has taken to improve quality of care
                     for the Medicare program and ESRD. In particular, CMS noted that it
                     developed CPMs in response to the Balanced Budget Act of 1997
                     requirement that CMS measure and report the quality of renal dialysis
                     services by January 1, 2000. CMS also noted that between 2003 and
                     2005 it defined the Core Data Set, which created a data dictionary of
                     data elements including clinical performance measures. In addition,
                     CMS stated that it proposed regulations for ESRD facilities that would
                     require facilities to electronically submit all CPMs on all ESRD
                     patients. CMS expects to finalize these proposed regulations in 2007.

                     CMS also stated that it recently renewed its commitment to developing
                     a new information system called Consolidated Renal Operations in a
                     Web-based Network (CROWN), which would consolidate existing data
                     sources into one system. CMS expects CROWN to be completed by
                     2008.


                     OFFICE OF INSPECTOR GENERAL RESPONSE
                     We recognize that CMS has taken action towards providing a
                     streamlined source of quality data that could assist Networks in

OEI-05-05-00300      AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    17
                                                                                               Report Template Update = 04-30-05_rev.12




R   E C O        M M E N D A T                          I O N


                      identifying quality improvement needs. However, we found that
                      current sources of data have limitations in assisting Networks in
                      identifying facilities with quality improvement needs. These limitations
                      include lack of current, comprehensive, and facility-specific performance
                      data.

                      We recommend that CMS continue to work towards providing Networks
                      with facility-specific data on all clinical performance measures. We
                      encourage CMS to ensure that the Final Rule expected in 2007 in
                      combination with the CROWN information system expected in 2008 will
                      result in Networks being provided with facility-specific data on all
                      clinical performance measures for all patients.




    OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    18
                                                                                           Report Template Update = 04-30-05_rev.12




Δ      A P P E N D I X

                                               AGENCY COMMENTS




OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    19
                                                                                            Report Template Update = 04-30-05_rev.12




A P P E N D        I X




 OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    20
                                                                                            Report Template Update = 04-30-05_rev.12




A P P E N D        I X




 OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    21
                                                                                            Report Template Update = 04-30-05_rev.12




A P P E N D        I X




 OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    22
                                                                                           Report Template Update = 04-30-05_rev.12




Δ   E N D N O T E S                                 





                     “Summary Report of the End Stage Renal Disease (ESRD) Networks’
                      1

                  Annual Reports 2003.” Available online at
                  http://www.cms.hhs.gov/ESRDNetworkOrganizations/Downloads/Networ
                  kAnnualReport2003.pdf. Accessed January 6, 2006.

                     “USRDS 2005 Annual Data Report.” Precis. Available online at
                      2

                  http://www.usrds.org/2005/pdf/0B_precis_05.pdf. Accessed March 1,
                  2006.

                     “2004 Annual Report ESRD Clinical Performance Measures Project.”
                      3

                  Centers for Medicare & Medicaid Services. December 2004.

                     Current regulations governing the ESRD program are called the
                      4

                  ESRD Conditions for Coverage, and can be found at 42 CFR 405
                  Subpart U.

                      5   Social Security Act § 1881(c)(2).

                      6   2003-2006 ESRD Network SOW. Page 6.

                     “External Quality Review of Dialysis Facilities: A Call for Greater
                      7

                  Accountability” (OEI 01-99-00050) and “Oversight of Kidney Dialysis
                  Facilities Needs Improvement” (GAO/HEHS-00-114).

                     “Dialysis Facilities: Problems Remain in Ensuring Compliance with
                      8

                  Medicare Quality Standards, (GAO-04-63),” Government Accountability
                  Office. October 2003. Page 50.

                      CMS description of “CMS Quality Initiatives.” Available online at
                      9

                  http://www.cms.hhs.gov/QualityInitiativesGenInfo. Accessed January 27,
                  2006.

                       CMS Fact Sheet “End Stage Renal Disease Policy and Payment
                      10

                  Initiatives.” August 1, 2005. Available online at
                  http://new.cms.hhs.gov/apps/media/press/release.asp?Counter=1523.
                  Accessed January 6, 2006.




OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    23
                                                                                           Report Template Update = 04-30-05_rev.12




                     “Report to the Congress: Medicare Payment Policy,” Medicare
                      11

                  Payment Advisory Commission. March 2004.

                      CMS Testimony before the Subcommittee on Health of the
                      12

                  Committee of Ways and Means. March 15, 2000. Available online at
                  http://www.hhs.gov/asl/testify/t050315a.html. Accessed March 22,2006.

                      Institute of Medicine “Performance Measurement: Accelerating
                      13

                  Improvement” 2006 and Medicare Payment Advisory Commission
                  “Report to the Congress: Medicare Payment Policy.” March 2004.

                      14   Balanced Budget Act of 1997, section 4558(b).

                       As noted earlier, the CPM and DFR data come from different
                      15

                  sources. Therefore, while the CPM and DFR may report on the same
                  category (e.g., adequacy of dialysis or anemia management), the projects
                  often do not use the same clinical measure to address that category.

                      An AV fistula is the surgical connection of a vein and an artery to
                      16

                  allow access to the vascular system, so blood can be removed and
                  returned during hemodialysis.

                      However, two of the three CPMs measure the same outcome. They
                      17

                  are listed as separate CPMs because they refer to two separate types of
                  dialysis patients, hemodialysis and peritoneal dialysis patients.

                      Diane L. Frankenfield, et al., “Comparison of Urea Reduction Ratio
                      18

                  and Hematocrit Data Reported in Different Data Systems: Results from
                  the Centers for Medicare & Medicaid Services and The Renal Network
                  Inc,” American Journal of Kidney Diseases 41 (February 2003) 2: 433­
                  441. Note: This article was written by CMS staff and other researchers.

                      Agency Comments to OIG Report “External Quality Review of
                      19

                  Dialysis Facilities: A Call For Greater Accountability” (OEI-01-00050),
                  page 44 and “Oversight of Kidney Dialysis Facilities Needs
                  Improvement” (GAO/HEHS-00-114). Page 33.

                      “Frequently Asked Questions on the ESRD Core Data Set”, first
                      20

                  page. Available online at
                  http://www.simsproject.com/downloads/cds/WhatIsCoreDataSet.pdf.




OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    24
                                                                                           Report Template Update = 04-30-05_rev.12




                  Accessed January 3, 2006. Note: In addition to quality improvement
                  information, the final Core Data Set measures include administrative
                  information.

                      In addition to quality improvement information, the final Core Data
                      21

                  Set measures include administrative information.

                     Large Dialysis Organizations are the four dialysis corporations that
                      22

                  own or operate about two-thirds of Medicare-certified dialysis facilities.

                      23   70 Fed. Reg 6254 (February 4, 2005).

                     CMS CROWN Statement of Work for Computer Sciences
                      24

                  Corporation, § (I)(A)(3). June 22, 2004.

                      “External Quality Review of Dialysis Facilities: A Call For Greater
                      25

                  Accountability” (OEI 01-99-00050).




OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    25
                                                                                           Report Template Update = 04-30-05_rev.12




Δ      A C K N O W L E D G M E N T S                                                               



                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas Komaniecki, Deputy Regional Inspector
                  General. Other principal Office of Evaluation and Inspections staff who
                  contributed include:

                  Laura Torres Kordish, Project Leader
                  Nicole Hrycyk, Program Analyst

                  Natalie Coen, Program Analyst
                  Janet Kilian, Program Analyst

                  Doris Jackson, Program Specialist

                  Tricia Davis, Director, Medicare Branch

                  Barbara Tedesco, Mathematical Statistician

                  Kevin Farber, Mathematical Statistician




OEI-05-05-00300   AVA I L A B I L I T Y   OF   QUALITY   OF   C A R E D ATA   IN THE   MEDICARE ESRD PROGRAM                    26
